SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8940
AMERICA • ASIA PACIFIC • EUROPE

RMORRIS@SIDLEY.COM

November 13, 2020
Honorable Scott Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

InfoBionic, Inc. v. CardioNet, LLC, No. 20-604

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 2,
2020, and the response is currently due on December 7, 2020.
Under Rule 30.4 of the Rules of this Court, Respondents CardioNet, LLC and Braemar
Manufacturing, LLC respectfully request a 14-day extension of time, to and including December
21, 2020, within which to file their response.
Counsel in this case have a variety of obligations in other matters that would make it
difficult to complete the response by the current deadline.
Thank you for your consideration of this request.
Respectfully submitted,

/s/ Ryan C. Morris
Ryan C. Morris*
Counsel for CardioNet, LLC and Braemar
Manufacturing, LLC
* Counsel of Record
RCM:

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

